June 7, 2011

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

DAVID E. WILLIAMS, JR.
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT: Audit Report – Management of the Highway Contract Route Voyager
         Card Program (Report Number NL-AR-11-003)

This report presents the results of our self-initiated audit focusing on management of the
Highway Contract Route (HCR) Voyager Card Program (Project Number
10XG030NL000). The objective was to assess the effectiveness1 of the U.S. Postal
Service’s HCR Voyager Card Program. This audit addresses financial, strategic, and
operational risks. See Appendix A for additional information about this audit.

Under the U.S. General Services Administration’s (GSA) SmartPay®2 Card Program,
federal agencies enter into agreements with approved financial institutions to obtain
purchase, travel, and fleet transaction cards.2 The Postal Service has been using the
fleet transaction card from U.S. Bank Voyager Fleet Systems, Inc. to purchase fuel for
its vehicle fleet since around 2000 (known as the Voyager Card Program).

In 2005, the Postal Service expanded its Voyager Card Program to include HCR
suppliers (known as the HCR Voyager Card Program). In fiscal year (FY) 2010, the
Postal Service spent almost $720 million on fuel for its highway contract transportation,
over $5903 million of which was purchased using HCR Voyager cards. HCR suppliers
are authorized an annual fuel allowance limit for use in the performance of Postal
Service HCR contracts and should not use fuel transaction cards to purchase fuel in
excess of the allowed quantities or to purchase unauthorized grades of fuel.




1
  We assessed the overall management and controls over the Voyager Card Program.
2
  Federal agency purchase card programs operate under a government-wide GSA SmartPay2 master contract.
Agency purchase card programs must comply with the terms of the contract and task orders under which the agency
placed its request for purchase card services.
3
  Approximately $131 million of the $590 million in Voyager Card transactions for HCR suppliers covered fuel
obtained at sites under the Postal Service’s HCR “bulk fuel” program.
Management of the Highway Contract Route                                                                  NL-AR-11-003
 Voyager Card Program


Conclusion

The Postal Service could more effectively manage and control its HCR Voyager Card
Program. We found the Postal Service did not always ensure that HCR suppliers
purchased only authorized grades of fuel or remained within the contract limitations on
number of fuel gallons purchased. These conditions occurred because the Postal
Service did not always follow Fuel Management Program (FMP) requirements.4



                                Instead, it elected to manage its risks by including
stipulations in the HCR contracts with the expectations of requiring suppliers to assume
risks for unauthorized transactions.5 However, GSA Voyager Card Program policies
require the Postal Service to ensure appropriate controls and assume full responsibility
for all charges, including unauthorized charges.

As a result, we estimate the Postal Service:

    Incurred $25.8 million and $22.5 million for the 2008/2009 and 2009/2010 fuel
    periods, respectively, in questioned costs6 for purchases of excess gallons over
    contract limits. Additionally, they incurred $2.6 million and $2.8 million for FYs 2008
    and 2009, respectively, for the purchases of unauthorized grades of fuel.7

    Has $29.4 million in financial assets at risk8 for fuel purchased over the contract
    limits for the 2007/2008 fuel period.9

Further, if the Postal Service improves its management and control of the HCR Voyager
Card Program, it could potentially avoid about $24.2 million annually in unnecessary
costs over the next two fuel periods for excess gallons purchased over contract limits.
Additionally, they could save $2.6 million annually for purchases of unauthorized grades
of fuel and payments for FYs 2010 and 2011.This would result in total estimated
savings of $53.7 million. See Appendix C and Appendix D for additional information
about our monetary impact and assets at risk calculations, respectively.
4
  The FMP guidelines document is updated annually and is part of the HCR contract by reference in the contract’s
terms and conditions.
5
  Management stated that by making HCR suppliers liable for any identified unauthorized transactions, they were
able to shift responsibility for control, risks, and security of the HCR Voyager Card to the suppliers, thereby avoiding
significant administrative costs.
6
  The $25.8 million and $22.5 million are estimates of questioned costs covering 2 periods based on the best
available information and the control weaknesses identified herein. The Postal Service provided an estimate of
$16 million for excess gallons covering the 2008/2009 contract fuel period. We have not validated the Postal
Service’s estimate and the actual amount of excess gallons cannot be determined until reconciliations are fully
completed, documented, and validated in accordance with all FMP requirements.
7
  For purposes of this audit, we used the cut-off from July 1 to June 30, representing the periods 2008/2009 and
2009/2010 for the excess gallons and FYs 2008 and 2009 for the unauthorized grades of fuel.
8
  We were unable to determine the extent to which reconciliations for 2007/2008 were completed in accordance with
all FMP requirements without reviewing 100 percent of all contract files, which number in the thousands.
9
  In accordance with U.S. Postal Service Office of Inspector General (OIG) policy, questioned costs for the purchase
of unauthorized grades of fuel and payment for excess gallons over contract allowances are limited to a 2-year
period, which covered the 2008/2009 and 2009/2010 contract fuel periods.


                                                            2
Management of the Highway Contract Route                                                                NL-AR-11-003
 Voyager Card Program



Further compounding the matter, we found the Postal Service did not have a reliable
system infrastructure and accurate data to support and provide for more effective
management and oversight of the HCR Voyager Card Program. Additionally, while the
Postal Service has continued to assess options for its FMP, it has not conducted a
comprehensive evaluation of the HCR Voyager Card Program to determine its
performance, risks, and feasibility.

Limited Monitoring of Purchases and Reconciliation of Authorized Gallons

The Postal Service did not always ensure that HCR suppliers purchased only
authorized grades of fuel and did not exceed contractually allowed fuel gallon
purchases. The Postal Service also did not effectively monitor HCR Voyager Card
transactions to ensure they were for authorized purchases and would pay invoices
without reviewing the transactions.10 This occurred because the Postal Service included
stipulations in HCR contracts for suppliers to assume risks for unauthorized transactions
and did not establish its own comprehensive control environment.

Additionally, we found that the Postal Service has not established effective controls to
ensure that management properly conducted annual reconciliations11 of all HCR
Voyager Card transactions to ensure HCR suppliers did not exceed the contractually
allowed fuel gallons. The reconciliations were not uniform, timely, appropriately tracked,
monitored, or documented by management. In this regard, the Postal Service has not
adequately documented the reconciliation of fuel gallons since contract period
2006/2007.12 Further, the reconciliation process includes a review of contractor
pooling,13 but the Postal Service was generally unable to provide documentation of
approved contract pools. As a result, it could not support the accuracy and consistency
of pooling based on its policy, including assessing operational benefits and ensuring
formal written requests and approvals. Consequently, highway suppliers often exceeded
their annual allotted fuel limits and these overages may not be collected timely or may
remain uncollected, putting the Postal Service’s financial assets at risk of loss. See
Appendix B for our detailed analysis of this topic.



10
   This is known as “pay and chase” method. Under this method, the Postal Service pays Voyager invoices without
adequately monitoring and reviewing transactions first (pay). If inappropriate or questionable transactions are
subsequently identified, the Postal Service must initiate review and recovery of inappropriate payments (chase).
11
   Reconciliation is the comparison of the actual gallons of fuel purchased to the contractually allowed gallons
annually. It is a primary control for the Postal Service in managing the HCR Voyager Card Program and safeguarding
its financial assets as detailed in the FMP.
12
   The transportation contracting function has undergone a major reorganization since September 2009, which
involved moving the transportation contracting officers and staff from area oversight to headquarters oversight. The
reorganization centralized the duties and responsibilities of transportation contracting officers under headquarters and
formed five primary Transportation Contract Management Teams (TCMTs) nationally, each headed by a
transportation contracting officer. Further, headquarters recently assumed all responsibilities for reconciliations
nationally.
13
   Pooling is the process that allows suppliers with multiple contracts that utilize the same vehicles across the
contracts to use the collective contract fuel allocation as the basis against which the collective gallon usage is
measured.


                                                           3
Management of the Highway Contract Route                                       NL-AR-11-003
 Voyager Card Program


Management informed us of their plan to develop a stronger HCR Voyager Card
Program internal policy and procedures document outside of the FMP. The policy will
address and strengthen controls for the reconciliation and pooling processes and
ensure they are adequately documented. Management is in the planning process for
these corrective actions and has not established a firm timeline or target date.

We recommend the vice president, Supply Management:

1. Further develop, update, and reinforce requirements for the Postal Service and
   highway contract route suppliers to enhance systems infrastructure, including
   incorporating systems edits and automation tools where possible, and monitor fuel
   transactions as necessary to avoid unauthorized purchases and ensure adherence
   to contract gallon limits.

2. Ensure that contracting officers apply pooling in accordance with established
   requirements and ensure pools are appropriately documented and approved.

3. Perform and document all outstanding reconciliations for prior periods to determine
   excess purchased fuel gallons and collect resultant overpayments.

Management’s Comments

Management generally agreed with our finding and recommendations 1 through 3.
Overall, management stated in their response that they would implement corrective by
July 2011.

With regard to recommendation 3, management stated that the area Distribution
Network Offices’ (DNOs) contracting officers advised that fuel reconciliations for periods
prior to the reorganization of the contracting officer teams in 2009 were completed at
the area DNO level. As such, management will conduct reconciliations for the
2009/2010 fuel year and subsequent periods. See Appendix G for management’s
comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1, 2, and
3 and management’s corrective actions should resolve the issues identified in the
finding.

Regarding recommendation 3, we understand the issues relating to reconciliations for
years prior to the contracting officer consolidation and reorganization in 2009 and the
related issues with locating documents from prior years. As the Postal Service
implements these recommendations, they should complete the reconciliations after that
reorganization (starting with the 2009/2010 contract fuel year) as soon as possible and
in accordance with the pooling and reconciliation requirements of the Fuel Management




                                            4
Management of the Highway Contract Route                                                              NL-AR-11-003
 Voyager Card Program


Plan. Further, management should ensure they document all identified overpayments
and validate them with HCR suppliers as well as track and recover them timely.

Limited Safeguards and Security of HCR Voyager Cards

We found that HCR suppliers have not always effectively safeguarded and secured
HCR Voyager Cards in accordance with internal control best practices.




These control deficiencies occurred because management elected to shift its risks by
contractually making HCR suppliers responsible for all unauthorized charges and did
not elect to implement key internal controls when it initiated the HCR Voyager Card
Program. Consequently, the lack of comprehensive and uniform key internal controls
increases the Postal Service’s exposure of risk14 for fraud, waste, and abuse. See
Appendix B for our detailed analysis of this topic.

We recommend the vice president, Supply Management:

4. Implement controls over the contractors that include:

         Strengthening procedures for safeguarding and securing highway contract route
         Voyager Cards,


         Coordinating with the U. S. Bank to limit the number of highway contract route
         (HCR) Voyager Cards issued to highway suppliers;




14
  The OIG is aware of incidences in Dallas, TX, and Chicago, IL, involving significant Voyager Card control
weaknesses.


                                                          5
Management of the Highway Contract Route                                       NL-AR-11-003
 Voyager Card Program



Management’s Comments

Management generally agreed with the finding and recommendation. They stated the
current process is appropriately designed and positioned and they rely on HCR
suppliers observing all contract terms and conditions that require the supplier to use the
HCR Voyager Cards for the purposes provided. They also outlined what they consider
to be existing controls and processes, including contract language, Voyager tools such
as Fleet Commander, and U. S. Bank processes. Management stated they will include
appropriate language on maintaining card inventories in the fuel management program
(FMP) policy scheduled for revision in June 2012. See Appendix G for management’s
comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendation 4 and
management’s corrective actions should resolve the issues identified in the finding. We
acknowledge the various contract terms and conditions relating to use and management
of the HCR Voyager Cards. As management implements our recommendation, they
need to focus on monitoring compliance with all contract provisions to reduce
unauthorized transactions and excess gallons purchased.

Limited Systems Infrastructure and Data

The Postal Service has not implemented a comprehensive systems infrastructure and
automated processes to manage and control the eFuel Program, including the ability to
track approved pooling structures, document completed and outstanding reconciliations,
effectively determine excess gallons, and recover overpayments. We found that Fuel
Asset Management System (FAMS) and Enterprise Data Warehouse (EDW) eFuel
reports contained errors in identifying gallons purchased, determining gallons
authorized, and calculating excess gallons. This was due to the limited functionality of
the systems and interface issues between the FAMS and EDW eFuel modules, as well
as the accuracy of authorized gallons in the Transportation Contract Support System
(TCSS). As such, we could not always rely on management information reports.

Further, as observed during the audit, the Postal Service continues to employ a
cumbersome manual process to determine and reconcile approved pools and stated
that the process requires a review of thousands of HCR contract files to determine the
status of reconciliations and previously approved pooling structures. As a result, the
Postal Service may be unable to efficiently and effectively identify excess fuel gallons
purchased and initiate timely recoveries. Management informed us they are aware of
these weaknesses with the FAMS and EDW eFuel modules and stated that funding for
enhancements was unavailable. See Appendix B for our detailed analysis of this topic.




                                            6
Management of the Highway Contract Route                                                                  NL-AR-11-003
 Voyager Card Program



We recommend the vice president, Supply Management:

5. Continue to pursue funding when feasible for enhancing the functionality of the Fuel
   Asset Management System and Enterprise Data Warehouse eFuel modules and to
   ensure the systems are user-friendly and enable management to more efficiently
   and effectively monitor authorized gallons, identify excess gallons, and recover any
   related excess payments.

Management’s Comments

Management agreed with recommendation 5. They noted they will continue to pursue
funding for enhancements to the related automated systems. In a meeting on
May 12, 2011, management said they will focus on enhancing the FAMS eFuel module
rather than the EDW eFuel module, which is unreliable and not useful. They also noted
that, given the Postal Service’s current financial condition and freeze on system
changes, they will not be able to ensure a specific implementation date for this
recommendation. As such, they requested that the OIG consider recommendation 5
closed. See Appendix G for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendation 5 on the
system enhancements to FAMS and management’s corrective actions should resolve
the issues identified in the finding. As the Postal Service implements this
recommendation, they should place high priority on their request for funding to enhance
and automate systems functionality and reporting capability. We will work with
management through the recommendation resolution process to establish an
appropriate target implementation date and close-out this recommendation.

Program Feasibility Assessment

The Postal Service stated that the HCR Voyager Card Program was the best FMP
option at the time of implementation. While the Postal Service continues to assess and
evaluate strategies for its FMP, it has not conducted a comprehensive evaluation of the
HCR Voyager Card Program to determine its performance, risks, and feasibility.
Further, the Postal Service did not define performance measures at the inception of the
HCR Voyager Card Program to assess it and the agency currently lacks sufficient,
current, and accurate data to facilitate such an assessment. Consequently, the Postal
Service is not able to readily demonstrate whether the HCR Voyager Card Program is
the best fuel management acquisition practice for its contracted highway transportation
even though the program does provide added benefits.15 See Appendix B for our
detailed analysis of this topic.

15
  Management stated that there are a number of benefits of the HCR Voyager Card Program, including reduced
administrative costs by contractually shifting responsibility for program risks, unauthorized transactions, as well as
card security and control of the cards to the HCR suppliers; paying only for fuel gallons purchased resulting in


                                                            7
Management of the Highway Contract Route                                                                 NL-AR-11-003
 Voyager Card Program



We recommend the vice president, Supply Management, with the support of the vice
president, Network Operations Management:

6. Periodically assess the financial and operational viability of the Highway Contract
   Route Voyager Card Program, including performing a formal cost-benefit analysis
   based on complete and recent data, considering the costs of implementing controls
   to address deficiencies identified in this report as appropriate.

7. Continue to identify and evaluate other fuel management program best practices
   used in the transportation industry and perform a comparative analysis against the
   existing Highway Contract Route Voyager Card Program where possible.

Management’s Comments

Management agreed to the finding and recommendations 6 and 7. Regarding
recommendation 6, management stated that they will assess the operational and
financial viability of the Voyager Card Program periodically consistent with their
Commodity Strategy Sourcing Plan. They expect to complete the plan by
September 2011.

Regarding recommendation 7, management stated that, although they consider the
HCR Voyager Card Program to represent best-in-class, they continue to review the
current fuel card process. They also noted that they plan to evaluate alternative fuel
card options as the task order with the current card provider expires in FY 2012.
Management also added that they have evaluated other industry best practices as part
of their ongoing fuel management activities. As such, they requested that the OIG
consider this recommendation closed based on their ongoing reviews and prior OIG
audits.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendation 6 and 7
and management’s corrective actions should resolve the issues identified in the finding.

Regarding recommendation 7, we will work with management through the
recommendation resolution process to establish an appropriate target implementation
date and close out the recommendation. Further, as the Postal Service continuously
assesses fuel management best practices, they should maintain detailed documentation
on all comparative analysis performed on industry best practices evaluated, planned or
implemented for its fuel management program options, including the Voyager Card
Program.



savings from potentially underutilized contractual gallons; bulk vs. retail savings gleaned from transaction card
activities; and rebates received from the U.S. Bank associated with the combined Voyager spend.


                                                           8
Management of the Highway Contract Route                                      NL-AR-11-003
 Voyager Card Program


Additional Management’s Comments

Management did not agree with the questioned costs and funds put to better use
monetary impacts associated with this report. They assert that the OIG’s calculations
are based on the assumption that without completion of the reconciliation process,
gallons related to purchases in excess of contractual limits and premium fuels should
not have been paid.

Regarding the purchase of gallons in excess of authorized limits, management points
out the dynamic nature of transportation operations, including the need for route
detours, extra trips, and other adjustments that could impact the amount of fuel a HCR
suppliers consumes and the authorized gallon limit. Further, management states that
the reconciliation process provides them with a control to ensure that when a supplier
has exceeded the estimated gallons, they can determine the validity of that associated
cost and recover any costs that are not justified. Management states the OIG cannot
determine the nature of purchases in excess of authorized gallon limits and is
inaccurate in asserting these are recoverable costs.

Regarding the purchase of unauthorized grades of fuel, management addresses the
miscoding of fuel purchases at retail fueling stations. They also note that there are
certain HCRs that require the use of premium fuels. Management states that it is
unclear as to whether the OIG report has fully considered the impact of the product
miscoding that occurs in the fuel industry.

Evaluation of Management’s Additional Comments

The primary issue and focus of our audit as discussed with Postal Service staff and
management over the past year is that without an adequate internal control environment
the actual amount of excess gallons and resulting potential overpayments are unknown.
Further, we fully understand that the dynamic nature of operations will result in changes
to authorized gallons and the Postal Service needs to validate any identified excess
gallons with HCR suppliers. In the absence of completed and validated reconciliations,
the OIG estimated excess gallons and the resulting overpayments, applying the
comprehensive, sound, and supportable methodology described in Appendix C.

Regarding the purchase of unauthorized grades of fuel, we had numerous discussions
with Postal Service staff and management regarding our methodology, calculations, and
assumptions relating to the unauthorized grades of fuel, and those are specifically
addressed in the report and in Appendix C. We tested a sample of premium fuel
transactions and factored product miscoding into our calculations. Again, the primary
point is that without a formal process to ensure monitoring of and follow-up of
questionable HCR Voyager Card transactions, the Postal Service and HCR suppliers
have no way of knowing the extent of purchases involving unauthorized grades of fuel.

Overall, management did not provide documentation for the amounts on which they
disagreed or offer supportable and final alternate amounts based on completed and
validated reconciliations. We based our calculations of the impacts on the best available


                                            9
Management of the Highway Contract Route                                    NL-AR-11-003
 Voyager Card Program


data given the many control and data weaknesses and lack of finalized and validated
reconciliations. We will continue working with management to reach agreement on
impacts in the process of closing the significant recommendations.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Megan J. Brennan
    Joseph Corbett
    John T. Edgar
    James Dwight Young
    Cynthia F. Mallonee
    Pamela S. Grooman
    Susan A. Witt
    Corporate Audit and Response Management




                                           10
Management of the Highway Contract Route                                                   NL-AR-11-003
 Voyager Card Program


                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service uses two fuel management payment options for HCR suppliers:

       Voyager Cards issued under the GSA’s SmartPay2 Program are used by about 39
       percent of all HCRs and account for about 81 percent of HCR fuel expenditures.
       During FY 2010, there were over 15,000 Voyager Cards being used by highway
       contract suppliers on almost 7,000 HCRs, composed mainly of large transportation
       routes.

       Fuel price indexing is used by about 61 percent of the HCRs, composed mainly of
       small transportation routes, box delivery routes, or HCRs not able to administer the
       HCR Voyager Card.16

The Postal Service intended to better manage the fuel component of HCRs by issuing
Voyager Cards and only paying for fuel that is used, obtaining more accurate fuel
acquisition and consumption data, and reducing fuel costs by leveraging volume
purchasing.




                          HCR driver fueling his vehicle at a retail fuel station in CA.

Fuel Asset Management System (FAMS). The Postal Service system designed to
capture fuel transaction information. The FAMS model contains two separate and
distinct modules covering HCR Voyager Card transactions, including eFuel, which
tracks fuel purchases for approved HCR suppliers. The FAMS eFuel data flows into
EDW, the official repository of data for the Postal Service that was established to
facilitate queries and report and analyze the Postal Service’s numerous data assets.

FMP Guidelines. The FMP document is part of the HCR contract, is referenced in the
contract’s terms and conditions, and provides guidance to suppliers and the Postal
Service regarding the HCR Voyager Card Program, including authorized uses of the
card, pooling of gallons by suppliers, and reconciliation of card transactions.

16
     This includes the small component of “manual” indexing.


                                                          11
Management of the Highway Contract Route                                         NL-AR-11-003
 Voyager Card Program


Unauthorized uses of the HCR Voyager Card include purchasing fuel in excess of the
contractually allowed gallons, improper grades of fuel, items other than fuel, and fuel for
vehicles other than those used for HCR contract performance. The management,
effectiveness, and efficiency of the HCR Voyager Card Program depend on the
application of and consistent and timely compliance with FMP processes for two critical
and related functions — pooling and reconciliation.

Pooling. The Postal Service established the pooling process to allow for those instances
where fuel purchased on one contract might be used on another contract based upon
maintenance operations, line of travel, or method of operation. Under the pooling
guidelines, suppliers with multiple contracts may request written approval from the
Postal Service to pool contractual allotted gallons against actual gallons purchased for
the purposes of performing annual reconciliations and determining excess gallons and
payments. The Postal Service is required to issue written approval to the supplier
specifically identifying which HCRs will be permitted to pool and in which pool, if multiple
pools are established.17 Pooling is part of the overall reconciliation process.

Reconciliation. The reconciliation process takes place after pooling and involves the
determination as to whether the “net” pool gallons are in excess of the allowed pool
gallons. When net pool gallons are in excess, the Postal Service is required to
document usage to the supplier and initiate action to recover costs associated with the
excess gallons. The FMP provides that if a supplier exceeds the pooled fuel allocation
for that year, the recoupment will be at the end of the pool year regardless of the
contract term.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to assess the effectiveness over the Postal Service’s
HCR Voyager Card Program. We evaluated effectiveness by examining the
management and controls over the program.

To accomplish our objective, we interviewed Postal Service officials and staff within
Supply Management, Information Technology, and the St. Louis Accounting Service
Center. We also interviewed contracting officers and HCR suppliers in select areas to
obtain an understanding of the HCR Voyager card processes and controls in place, as
well as U.S. Bank Voyager Fleet Systems, Inc. staff. Further, we reviewed HCR
Voyager Card transactions to determine if current controls are functioning as intended,
including purchase of unauthorized fuel grades and excess gallons.

We assessed the reliability of the computer-generated eFuel data used in our analyses
by interviewing Postal Service users and officials, reviewing existing information about
the data, and evaluating other pertinent fuel program information. Based on our limited
testing, we determined that the management information reports the FAMS and EDW
eFuel modules generated were inaccurate and contained errors in identifying the
gallons purchased, determining gallons authorized, and calculating excess gallons.
17
     A supplier could have more than one pool depending on its HCR operations.


                                                         12
Management of the Highway Contract Route                                         NL-AR-11-003
 Voyager Card Program


Therefore, these initial reports were not sufficiently reliable for the purposes of our audit
work and this report. However, we worked extensively with the Postal Service to obtain
the best information available and establish a framework for using these reports,
including applying manual processes and using back-end data. We also applied other
alternate audit procedures including examination of source documents, comparison with
other information and data, evaluation of unit costs, and discussions with responsible
officials.

We conducted this performance audit from February 2010 through June 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on February 3, 2011, and included
their comments where appropriate. Management provided its comments to the draft
audit report on April 22, 2011 – these comments are in their entirety at Appendix G.
Subsequently, we met with the vice president, Supply Management, and management
staff on May 12, 2011, to discuss management’s written response, our evaluation of
their comments, and our determination as to whether their comments were responsive
to all of the recommendations and whether any stated actions would resolve the issues
identified in this report. We included management’s subsequent comments in our
evaluation of their written response where appropriate.

PRIOR AUDIT COVERAGE

The OIG has issued six reports related to Voyager Cards that are used internally for
Postal Service-owned vehicles under the eFleet Program. The eFleet control
weaknesses identified were considered in the planning of this audit and are summarized
below. Additionally, the Government Accountability Office (GAO) issued a report on
February 16, 2007, addressing changes in the Postal Service’s fuel costs and its impact
on financial and operating conditions and actions to control and track fuel costs.




                                             13
 Management of the Highway Contract Route                                                                 NL-AR-11-003
  Voyager Card Program




                                                                Final Report
      Report Title                Report Number                                               Report Results
                                                                    Date
Voyager Card Program               CA-AR-08-00618                 3/21/2008            The OIG identified eFleet
                                                                                       internal control weaknesses
                                                                                       at nine of 10 facilities
                                                                                       audited, covering training,
                                                                                       card security, PIN security,
                                                                                       reconciliations,
                                                                                       recordkeeping, and
                                                                                       segregation of duties.
                                                                                       Management agreed with
                                                                                       the findings and
                                                                                       recommendations.
USPS Vulnerability to                GAO-07-244                   2/16/2007            The GAO reviewed the
Fluctuating Fuel Prices                                                                Postal Service’s actions to
Requires Improved                                                                      control fuel costs and
Tracking And Monitoring                                                                recommended that the
Of Consumption                                                                         Postal Service take action to
Information                                                                            improve its tracking and
                                                                                       monitoring of transportation
                                                                                       and facility-related fuel
                                                                                       consumption data.




 18
   The Voyager Card eFleet reports included five reports covering 10 facilities and a capping report. Only the eFleet
 capping report is listed above and the capping report identifies the individual eFleet reports and facilities audited.


                                                           14
Management of the Highway Contract Route                                                           NL-AR-11-003
 Voyager Card Program


                                APPENDIX B: DETAILED ANALYSIS

We concluded that the Postal Service could more effectively manage and control its
HCR Voyager Card Program. Specifically, we determined that the Postal Service did not
always ensure that HCR suppliers purchased only authorized grades of fuel and that
HCR suppliers did not exceed contractually allowed fuel gallons. These conditions
occurred because the Postal Service has not always followed its FMP requirements.



                                Instead, it elected to manage its risks by including
stipulations in the HCR contracts with the expectation of requiring the suppliers to
assume the risks for unauthorized transactions. However, GSA Voyager Card Program
requirements provide that the Postal Service ensures appropriate controls and that it
assumes full responsibility for all charges, including unauthorized charges.

We also found the Postal Service did not have a reliable system infrastructure and
accurate data to support and provide for more effective management and oversight of
the HCR Voyager Card Program. Additionally, while the Postal Service has continued to
assess options for its FMP, it has not conducted a comprehensive evaluation of the
HCR Voyager Card Program to determine its performance, risks, and feasibility.

Limited Monitoring of Purchases and Reconciliation of Authorized Gallons

We determined that the Postal Service did not always ensure that HCR suppliers
purchased only authorized grades of fuel and did not exceed contractually allowed fuel
gallons. The Postal Service has not established effective processes for monitoring
transactions and has not followed its FMP requirements for reconciliation. This occurred
because the Postal Service included stipulations in the HCR contracts for suppliers to
assume risks for unauthorized transactions and did not establish its own comprehensive
control environment.

Transaction Monitoring. We noted that the Postal Service’s Surface Transportation
Category Management Center (CMC) did not always review and monitor fuel
transactions and monitoring varied among Postal Service area operations and
Transportation Contract Management Teams (TCMTs). Local (area) monitoring often
depended on the availability of resources and other priorities. Further, we found that the
Postal Service remits funds for Voyager weekly billing statement balances by employing
a “pay and chase” approach for the HCR Voyager Card Program whereby it does not
review or validate invoiced transactions prior to payment. The Postal Service relies on
an automated system review limited to validation of contract numbers and identification
of duplicate transactions. There are no edit mechanisms in place to identify purchases
of unauthorized grades of fuel and the U.S. Bank cannot presently restrict transactions
by fuel grade.19

19
  In our discussions with the U.S. Bank, they advised us of planned systems enhancements and functionality for
implementation in 2011, which will cover fuel grade.


                                                       15
Management of the Highway Contract Route                                                               NL-AR-11-003
 Voyager Card Program



According to the FMP, suppliers should only use HCR Voyager Cards to purchase
authorized grades of fuel within approved, contractually negotiated limits. The FMP
further provides that fuel for highway use reimbursed by the Postal Service should be
for either unleaded gasoline (87 Octane) or diesel number 2 grade. Using HCR Voyager
Cards to purchase higher grades of fuel is generally not permissible unless specifically
required by the contract based on the equipment requirements. It is the responsibility of
the Surface Transportation CMC to conduct a review and follow up with any improper
transactions and Postal Service Headquarters relies on the contracting officers to
provide oversight and monitor fuel transactions. Further, the Postal Service elected to
manage risks of the HCR Voyager Card Program by contractually shifting responsibility
for unauthorized transactions to HCR suppliers. However, we determined that Postal
Service Headquarters did not provide sufficient guidance, resources, and tools to its
contracting officers, nor did they ensure consistency in the administrative application of
the established requirements in accordance with the FMP.

As a result, we estimate the Postal Service incurred $5.4 million in questioned costs
($2.6 million and $2.8 million in FYs 2008 and 2009, respectively) for the purchase of
unauthorized grades of fuel, including super unleaded and unleaded plus gasoline. It
should be noted that the Postal Service believes that most transactions for premium fuel
are miscoded since the majority of HCR vehicles use diesel fuel.20 However, we
reviewed a judgmentally selected sample of miscoded transactions and found that
between 54 and 77 percent appeared to be valid transactions for unauthorized grades
of fuel given the cost per gallon at the retail station.21

Transaction Reconciliation. The Postal Service established reconciliation as the primary
process and control point to effectively manage and protect the HCR Voyager Card
Program. The stated goals for reconciliation are:

     Managing and reviewing actual gallon usage versus contract gallons.

     Approving purchases within the limits of the contract.

     Addressing purchases that are questionable and otherwise put the Postal Service at
     risk for financial loss.

A primary purpose of the reconciliation process is the determination of excess gallons
through the comparison of fuel gallons actually purchased against authorized fuel
gallons established in the contract. As outlined in the FMP, the Postal Service is
required to perform reconciliations annually; however, we found that annual
reconciliations are not always adequate, uniform, timely, or appropriately tracked or
monitored. The Postal Service stated it completed the reconciliation process for all
20
   For those transactions where premium grades of gasoline are purchased for a vehicle that should be using diesel
fuel, there is an increased possibility of fraud or abuse occurring.
21
   We compared the price per gallon (PPG) of regular unleaded fuel in the same time period and location against the
reported super unleaded or unleaded plus transaction PPG. The range of valid transactions is attributable to different
results for super unleaded and unleaded plus fuel types as well as for the FYs 2008 and 2009.


                                                          16
Management of the Highway Contract Route                                                              NL-AR-11-003
 Voyager Card Program


HCRs covering the 2005/2006 and 2006/2007 contract fuel periods – the initial periods
of the HCR Voyager Card Program. However, with the limited data and support
provided, in addition to the FAMS and EDW weaknesses, we could not determine how
complete the initial reconciliations were. Our review disclosed that the Postal Service
has not adequately documented the reconciliation of fuel gallons for the subsequent
2007/2008 contract fuel period. Additionally, in our discussions with Postal Service
Headquarters, management stated they were beginning to perform the preponderance
of reconciliations of the 2008/2009 contract fuel period in September 2010. Overall, we
were unable to obtain details on the Postal Service’s plans to complete the
reconciliation process covering the 2007/2008 and 2009/2010 contract fuel periods.

Because management did not perform these reconciliations, purchased fuel gallons
exceeded the contract limits, resulting in significant unnecessary costs and requiring
additional reconciliation and recoupment efforts with limited resources and time. We
also identified an estimated $29.4 million in financial assets at risk for fuel purchased
over the contract limits for the 2007/2008 fuel period.22 We were unable to determine
the status on any actual recoupment of excess fuel purchases.

Pooling Requirements. The Postal Service established the pooling concept (pooling of
gallons) to allow HCR suppliers to leverage their assets to reduce their operational
costs through centralized maintenance, reduced equipment costs, and maximized
operating efficiencies. Under pooling, HCR suppliers with multiple contracts that use the
same vehicles in various forms across the contracts may receive approval from the
Postal Service to use the collective contract fuel allocation. The collective gallons
purchased under all approved contracts are compared against the authorized number of
gallons in the contract pool collectively for a given time period. Pooling structures are
vital steps in the fuel reconciliation process. Consideration for pooling is predominantly
based upon the supplier’s explanation of fuel use across contracts through daily
operations.

The FMP document outlines the procedures for the application of the pooling
methodology. These procedures include the treatment of contracts added or removed
from the pools, varying contract years, and calculation of partial years. The FMP23
further states contracts that do not traverse24 should not generally be considered for
pooling. An approved pool requires both a written request and justification from the
supplier and a written approval from the Postal Service. Specifically, the approval will
identify which highway contract transportation routes are permitted to pool and in which
pool, where multiple pools are established.

However, we found that each Postal Service Area/TCMT had established their own
process for allowing suppliers to pool, which ranged from requiring an operational need

22
   In accordance with OIG policy, questioned costs for the purchase of unauthorized grades of fuel and payment for
excess gallons over contract allowances are limited to a 2-year period, which covered the 2008/2009 and 2009/2010
contract fuel periods.
23
   The FMP dated February 13, 2007, and annual revisions specifically stated that contracts that do not traverse
should not generally be approved for pooling.
24
   To be considered for pooling, contract vehicles must cross over on routes and intersect geographic service areas.


                                                         17
Management of the Highway Contract Route                                         NL-AR-11-003
 Voyager Card Program


to pool to automatically pooling suppliers with multiple contracts to geographically based
pooling, and occasionally establishing inter-area pools outside the national pooling
authority created by headquarters. Further, the Postal Service was generally unable to
provide documentation of approved contract pools that supported the accuracy and
consistency of pooling based on its policy, including assessing operational benefits and
ensuring formal written requests and approvals. This occurred because of ineffective
oversight of compliance with FMP requirements. An overly flexible pooling process
promotes the additional risk of abusing the program’s spirit and intent to serve suppliers
that have an operational need to share vehicles among their HCRs.

We concluded that the Postal Service has not adequately reconciled excess fuel
transactions to include gallons under pooled contracts. As a result, it is vulnerable to
improper, unnecessary, or excessive purchases and incurred questionable costs for
$48.3 million covering periods between 2008 and 2010. In addition, we identified $48.4
million of funds that could be put to better use over the next 2 periods if action is taken.

To complicate matters, we noted that the September 2009 reorganization of the
contracting officers and teams from the areas to Surface Transportation CMC resulted
in a major transition in contracting staff and a number of vacancies. This transition
affected institutional knowledge within the Surface Transportation CMC and the
availability of documentation covering prior contract fuel periods, including 2007/2008.
This made reconciliations and recovery of overpayments more difficult and increased
the risk of loss to the Postal Service since fraud, waste, and abuse may go undetected.
Overall, if the Postal Service improves its management and control of the HCR Voyager
Card Program through effective monitoring and reconciliation, it could ensure a more
effective, efficient, and economical fuel purchase program for its highway suppliers and
potentially avoid costs of $53.7 million over the next 2 periods.

Management Action. In August 2010, headquarters management informed us that the
Surface Transportation CMC would assume all responsibilities for reconciliation duties.
The Surface Transportation CMC is presently engaged in reconciling the pooling of
transactions for the 2008/2009 contract period. They are also developing a stronger
internal policy and procedures document outside of the FMP to further address controls
for the reconciliation and pooling processes and ensure they are adequately
documented.




                                             18
Management of the Highway Contract Route                                                               NL-AR-11-003
 Voyager Card Program


Limited Safeguards and Security of HCR Voyager Cards

We found that management did not establish key controls for safeguarding and
securing HCR Voyager Cards25 that were in line with internal control best practices.

                                                                       These control
deficiencies occurred because management elected to shift its risks by contractually
making HCR suppliers responsible for all charges and management did not elect to
implement key internal controls when they initiated the HCR Voyager Card Program.
Consequently, the lack of comprehensive and uniform key internal controls increases
the Postal Service’s risk for fraud, waste, and abuse.




                       HCR Voyager Card and card holder visibly displayed on the
                        windshield and dashboard of two HCR supplier vehicles.
                                    Pictures taken May 2010 in CA.




                                                                             As such, this
creates risk in the event of the card being intercepted, possibly leading to misuse and
fraud.




25
  According to the GAO’s Standards for Internal Control in the Federal Government, internal controls should provide
reasonable assurance that operations are effective and efficient. The standards clearly state internal controls serve
as the first line of defense in safeguarding assets and preventing and detecting errors and fraud.


                                                         19
Management of the Highway Contract Route                                         NL-AR-11-003
 Voyager Card Program




Limited Systems Infrastructure

The Postal Service has not implemented a comprehensive system infrastructure and
automated processes to manage and control the eFuel Program, including the ability to
track approved pooling structures, document completed and outstanding reconciliations,
effectively determine excess gallons, and recover overpayments. We found that reports
generated by both the FAMS and EDW eFuel modules contained errors in the
identification of gallons purchased, the determination of gallons authorized, and the
calculation of excess gallons.

In its August 2002 Business Case Analysis for FAMS, the Postal Service stated that the
eFuel module will provide an accurate accounting of fuel transactions and expenses,
resulting in the Postal Service’s greater visibility to better manage fuel costs and related
risk management issues. Additionally, they noted that accurate fuel utilization reports in
lieu of estimates would provide actual and valuable information about the performance
of fuel purchases by highway suppliers, will support corrective measures, and facilitate
effective negotiations by headquarters and area purchasing personnel. Another stated
benefit of the FAMS eFuel module is the system-generated reports, which enhances
and strengthens internal controls for HCR suppliers and eliminates inappropriate fuel
purchases.

The Postal Service implemented the FAMS eFuel module in Q2, 2005, and asserted it
will help the Postal Service improve its fuel processes for HCR suppliers over an
extended period of time. For example, in its response to the GAO’s audit report dated
May 2004 (Postal Service Progress in Implementing Supply Chain Management
Initiatives), the Postal Service stated they placed a high priority on implementing FAMS
(the eFuel module) to ensure the availability of accurate and timely HCR fuel
information. In 2005, the Postal Service further asserted through its dissemination of

26




                                             20
Management of the Highway Contract Route                                      NL-AR-11-003
 Voyager Card Program


information to HCR suppliers that it will use FAMS (the eFuel module) to manage and
review actual gallon usage versus contract gallons. The Postal Service continued its
assertion that it would use FAMS to approve purchases within the limits of the contract
and address questionable purchases and expenditures that otherwise put the Postal
Service at risk for financial loss.

To assist in monitoring the HCR Voyager Card Program and help compensate for
limited functionality in the FAMS eFuel module, the Postal Service developed the eFuel
module within EDW in 2008. The EDW eFuel module focused on the creation of reports,
which were designed to assist the Postal Service to maintain and analyze HCR Voyager
Card transaction data for HCR suppliers and improve the tracking and monitoring of
HCR Voyager performance.

The eFuel modules lack the necessary functionality for the adequate management of a
program of this scope and size. For example, neither FAMS nor EDW presently have
the functionality for tracking the approved pooling structures in congruence with the
FMP requirement. They further lack the functionality to track completed reconciliations
and track recoveries. In addition, Postal Service officials stated the modules are not
user-friendly and require back-end and manual processes to generate usable
information. Finally, the authorized gallons in TCSS are not always updated and
accurate to reflect changes in routes or service. As a result, reports generated by both
the FAMS and EDW eFuel modules contained errors in the identification of gallons
purchased and authorized and determination of excess gallons.

As observed during the audit, the Postal Service continues to employ a cumbersome,
manual process to determine and reconcile approved pools and stated that the current
process requires a review of thousands of HCR contract files to determine the status of
reconciliations and previously approved pooling structures. As a result, the Postal
Service may be unable to efficiently and effectively identify the excess fuel gallons and
initiate timely recoveries. Management acknowledged the systems’ shortcomings and
informed us they are fully aware of the weaknesses within the FAMS and EDW eFuel
modules.

The Postal Service did not effectively assess all system needs during its risk
assessment for HCR Voyager Card Program deployment and FAMS development to
ensure it had the necessary functionality to support the program and ensure adequate
controls. This condition is impacted by a lack of funding to update the current systems
and affects management’s ability to monitor performance over time and ensure that
controls are functioning as intended to mitigate misuse, abuse, and waste of financial
resources.

Program Feasibility Assessment

The Postal Service stated that the HCR Voyager Card Program was the best FMP
option at the time of implementation. While the Postal Service continues to assess and
evaluate strategies for its FMP, it has not conducted a comprehensive evaluation of the



                                            21
Management of the Highway Contract Route                                                              NL-AR-11-003
 Voyager Card Program


HCR Voyager Card Program to determine its performance, risks, and feasibility.
Further, the Postal Service did not define performance measures27 at the inception of
the HCR Voyager Card Program in order to assess its effectiveness and it currently
lacks sufficient, current, and accurate data to facilitate such an assessment.
Consequently, the Postal Service is not able to readily demonstrate whether the HCR
Voyager Card Program is the best fuel management acquisition practice for its
contracted highway transportation.

The Postal Service stated that the HCR Voyager Card Program offers benefits and
opportunities over other FMP options. They further stated that the HCR Voyager Card
Program provides the Postal Service with detailed transaction-level fuel data that
enables it to explore opportunities to expand its use of bulk fuel suppliers and establish
a “preferred fueling network” to reduce HCR fuel costs and save money. While these
program attributes are beneficial, the weaknesses indentified in this report preclude the
Postal Service from determining overall program feasibility over other fuel purchase
options. For example, the contracts that have not been adequately reconciled for the
past several periods need to have reconciliations completed to determine the quantity of
highway supplier gallons in excess of contractually allowed gallons before actual
program costs can be assessed. In another example, management cannot allocate
HCR Voyager Card Program administrative costs until the contracting officer
reorganization is complete and eFuel-FAMS has the necessary functionality to support
program goals that provide an effective control environment. Consequently, the Postal
Service currently lacks complete and accurate data to readily determine if the HCR
Voyager Card Program is the best FMP option for the Postal Service’s contracted
highway transportation.

A performance analysis and risk assessment will allow the Postal Service to weigh
performance against industry best practices and alternate FMP options, such as
automated fuel price indexing. Further, any such analyses would also need to consider
the unique challenges related to managing transportation contracts in the context of the
Postal Service’s environment when compared to other transportation companies in the
private industry.




27
  Actual performance data that is continually compared against expected/planned goals and differences are
analyzed. For example, the performance data could include cost per mile, miles per gallon, or dollars saved under the
HCR Voyager Card Program when compared to the prior FMP option.


                                                         22
Management of the Highway Contract Route                                                                 NL-AR-11-003
 Voyager Card Program


                                 APPENDIX C: MONETARY IMPACTS

                                 Table 1. Monetary Impacts Summary

                         Finding                                       Impact Category                     Amount
Limited Monitoring of Purchases and Reconciliation of
                                                                                    28
Authorized Gallons – 2008/2009 and 2009/2010 eFuel               Questioned Costs                           $48,329,167
Transactions- Excess Gallons (see Table 2)
Limited Monitoring of Purchases and Reconciliation of
                                                                                         29
Authorized Gallons - 2010/2011 and 2011/2012 eFuel               Funds Put to Better Use                     48,413,964
Transactions- Excess Gallons (see Table 2)
Limited Monitoring of Purchases and Reconciliation of
Authorized Gallons – FYs 2008 and 2009 eFuel                     Recoverable Questioned Costs                 5,390,570
Transactions – Premium Fuel (see Table 3)
Limited Monitoring of Purchases and Reconciliation of
Authorized Gallons – FYs 2010 and 2011 eFuel                     Funds Put to Better Use                      5,238,640
Transactions – Premium Fuel (see Table 3)
Total Recoverable Questioned Costs                                                                          $53,719,737
Total Funds Put to Better Use                                                                               $53,652,604


     Table 2. Monitoring and Reconciliation of eFuel Transactions – Excess Gallons
                                Calculation Summary30

                                                Excess Fuel
        12 Month Period Ending
                                                 Purchased               PPG ($)              Excess Purchases
               June 30
                                                  (gallons)
                                                      (a)                   (b)                  (c) = (a) * (b)
                                                                                                              31
                2008/2009                          8,724,125              Various               $25,793,341
                                                                                                              32
                2009/2010                          7,976,104              Various                22,535,826
                                  Questioned Costs                                               $48,329,167
                                                                                                              33
                2010/2011                          8,350,115               $2.90                $24,206,982
                2011/2012                          8,350,115               $2.90                  24,206,982

                              Funds Put to Better Use                                            $48,413,964




28
   Recoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations.
29
   Funds that could be used more efficiently by implementing recommended actions.
30
   The Postal Service should attain the actual results of the true reconciliations in accordance with the established
protocols of the FMP, and ensure full recovery of all overpayments.
31
   This is an estimate of questioned costs for the 2008/2009 fuel period based on the best information available and
given the control weaknesses identified herein. The Postal Service provided an estimate of $16 million for excess
gallons covering the 2008/2009 fuel period. We have not validated the Postal Service’s estimate and the actual
amount of excess gallons cannot be determined until reconciliations are fully completed and documented in
accordance with all FMP requirements.
32
   These are estimates of questioned costs covering two periods based on the best available information and the
control weaknesses identified herein.
33
   The estimated potential savings do not cross-foot due to the rounding of the price per gallon for fuel.


                                                            23
Management of the Highway Contract Route                                       NL-AR-11-003
 Voyager Card Program


We calculated the recoverable questioned costs and funds put to better use relating to
suppliers’ purchase of excess fuel gallons based on the following methodology and
assumptions:

   The Postal Service generally did not document the completion of reconciliations for
   the period covering the 2007/2008 contract fuel period forward. Given the reliability
   issues with the systems used to manage the eFuel program, we worked with the
   Postal Service to develop a methodology to estimate the number of excess gallons
   using the best information available to the Postal Service at this time, which involved
   time-consuming back-end and manual processes.

   We used the results of the Postal Service’s reconciliation of 20 large inter-area
   suppliers for the 2008/2009 contract fuel period even though their application of
   pooling and the related reconciliation results are subject to change.

   We identified the excess gallons as calculated by EDW for fuel periods 2008/2009
   and 2009/2010 and augmented this with FAMS back-end data supplied by the
   Postal Service (when available).

   We calculated the PPG by the weighted cost over gallons as represented in EDW.

   2010/2011 and 2011/2012 excess gallons — these figures are based on the average
   results for 2008/2009 and 2009/2010 excess gallons. We applied the average for
   2010/2011 and 2011/2012 estimates of excess gallons.

   2011 and 2012 fuel PPG — we used the U.S. Department of Energy (DOE), Energy
   Information Administration (EIA) retail diesel, average national prices for the week
   ending July 19, 2010. Diesel is over 95 percent of total fuel purchased in fuel period
   2008/2009 for HCRs.

   2010/2011 and 2011/2012 excess gallons purchased amount — cost was calculated
   by multiplying excess gallons by fuel prices.

   We did not adjust the cost of excess gallons with any recoveries (collections) from
   highway suppliers because most contracts had not been reconciled and we were
   unable to validate the accuracy of any collections for contracts that had been
   reconciled. Further, we were not able to obtain reliable data regarding collected and
   outstanding balances for the excess gallons.




                                            24
Management of the Highway Contract Route                                                                  NL-AR-11-003
 Voyager Card Program



      Table 3. Monitoring and Reconciliation of eFuel Transactions – Premium Fuel
                                 Calculation Summary

                                                    Super Unleaded         Unleaded Plus

                                     Questioned Costs – FYs 2008 and 2009

                                                       FY 2008

      Premium Gallons                                          387,784             788,426

      Cost ($)                                             $1,472,402          $2,879,212

      Adjustment                                                  69%                  54%

                 Subtotal – FY 2008                        $1,015,957          $1,554,774            $2,570,731

                                                       FY 2009

      Premium Gallons                                          828,802             891,119

      Cost ($)                                             $2,106,031          $2,218,879

      Adjustment                                                  77%                  54%

                 Subtotal – FY 2009                        $1,621,644          $1,198,195            $2,819,839

            Total – FYs 2008 and 2009                      $2,637,601          $2,752,969            $5,390,570

                                 Funds Put to Better Use – FYs 2010 and 2011

      2008 Adjusted Gallons                                    267,571             425,750

      2009 Adjusted Gallons                                    638,178             481,204

      Average Gallons                                          452,874             453,477

      Average DOE-EIA FY 2010 PPG                                $2.95               $ 2.83
                                                                      34
                 Subtotal – FY 2010                      $1,335,979            $1,283,340            $2,619,320

                 Subtotal – FY 2011                        $1,335,979          $1,283,340            $2,619,320

            Total – FYs 2010 and 2011                                                                $5,238,640




34
     There is a $1.00 difference in the super unleaded estimates for FYs 2010 and 2011 due to rounding.


                                                          25
Management of the Highway Contract Route                                      NL-AR-11-003
 Voyager Card Program


We calculated the recoverable questioned costs relating to the purchase of premium
fuel types based on the following methodology and assumptions:

   Gallons and Cost — we identified the cost and the number of super unleaded and
   unleaded plus gallons consumed and paid in FYs 2008 and 2009 using EDW.

   Adjustment — we determined the percentage of non-miscoded premium fuel
   transactions for FYs 2008 and 2009. For each of the periods, we judgmentally
   selected 13 super unleaded transactions and 13 unleaded plus transactions. We
   took the average PPG of regular unleaded grade of fuel that was transacted within
   4 days of the date that the super unleaded or unleaded plus transaction. We
   proceeded to calculate the PPG difference between super unleaded/unleaded plus
   and the average regular unleaded price to determine if it appears to be correctly
   coded and summarized the results by dividing total properly coded premium fuel
   transactions to total transactions.

   Projections — we totaled super unleaded and unleaded plus gallons for FYs 2008
   and 2009 after applying the adjustment factor. We used a calculated average PPG
   using the Department of Energy – Energy Information Agency’s weekly national
   benchmark retail prices covering a period over FY 2010. We multiplied the average
   gallons by PPG to estimate the average yearly impact by fuel type of unauthorized
   purchases.

   We used data from EDW reports for our calculations; however, there are data
   limitations involved that inhibit a high level of accuracy, as fuel products could be
   miscoded. The Postal Service was not able to provide information on the number or
   percentage of transactions that are miscoded. When comparing the PPGs of
   premium fuel and unleaded fuel, we are assuming that the unleaded fuel transaction
   is accurate and is not a result of miscoding.

   We attempted to obtain transaction data at the station level for more precise PPG
   comparison. While the station-to-station data was available from the card services
   vendor, there are product miscoding issues with this data as well that would inhibit
   making positive assertions regarding the true nature of the transactions in question.




                                           26
Management of the Highway Contract Route                                                               NL-AR-11-003
 Voyager Card Program


                                        APPENDIX D: OTHER IMPACTS

                                              Table 4. Assets at Risk

                                                                            Impact
                                      Finding                                               Amount
                                                                           Category
                 Limited Monitoring of Purchases and
                 Reconciliation of Authorized Gallons –                                35
                                                                          Assets at Risk    $29,392,405
                 2007/2008 eFuel Transactions- Excess Gallons
                 (See Table 5)


     Table 5. Other Impacts – Monitoring and Reconciliation of eFuel Transactions –
                   Excess Gallons Calculation Summary for 2007/2008

                               Description                                        Results
                Average overage                                                                8,350,115
                Average PPG                                                                       $3.52

                Assets at Risk                                                              $29,392,405



           We were unable to determine the extent to which reconciliations for the
           2007/2008 contract fuel period were completed in accordance with all FMP
           requirements without reviewing 100 percent of all contract files, which number in
           the thousands.

           Reconciliations and recovery of overpayments will be more difficult because any
           subsequent reconciliation of the 2007/2008 contract fuel period will be untimely
           and, combined with staff changes and limited documentation, will place these
           financial assets at risk of loss.

           We used the average overage gallon estimations made for the 2008/2009 and
           the 2009/2010 contract fuel periods and applied it to the 2007/2008 period. We
           used summarized 2007/2008 EDW data for this period to calculate an average
           PPG and multiplied these figures to arrive at assets at risk amount for the
           2007/2008 contract fuel period.




35
     Assets that are at risk of loss because of inadequate internal controls.


                                                              27
Management of the Highway Contract Route                                              NL-AR-11-003
 Voyager Card Program


        APPENDIX E: OVERVIEW OF THE HCR VOYAGER CARD PROGRAM

Highway transportation is the largest component of the Postal Service’s transportation
network, and includes over 16,000 commercially contracted HCRs covering about
10,300 HCR suppliers. The Postal Service’s Voyager Card Program for HCR suppliers
is large and complex covering many different processes. Below is an overview of the
key steps within the HCR Voyager Card Program.



                    Overview of the HCR Voyager Card Program


   The HCR supplier estimates the contracted fuel gallons necessary to meet miles
   covered by the HCR.

   The Postal Service designates one or more of a supplier’s HCRs as falling under the
   HCR Voyager Card Program for reimbursement of fuel.

   The Postal Service reviews and approves the supplier’s Annual Contract Allowance
   form (HC-131), representing the maximum payable number of fuel gallons per year for
   the contract. This document establishes the contractually allowed limit of fuel gallons by
   HCR.

   The actual gallons purchased with the HCR Voyager Card are compared against the
   contractually allowed gallons to determine “excess gallons” by HCR.

   The Postal Service verifies the excess gallon information to ensure it has not missed
   contract adjustments and exceptional service (extra trips) and that the contractually
   allowed limit is accurate.

   Should the Postal Service or HCR supplier identify any unauthorized purchases, the
   HCR supplier is liable for all charges resulting from loss, theft, or unauthorized use of
   the HCR Voyager Card (up to the time the HCR supplier has properly notified the U.S.
   Bank of the loss or theft of a Voyager Card).

   The Postal Service “pools” supplier contracts to determine the number of excess gallons
   by supplier pools. Note that “pools” must be requested in writing and contain an
   operational need for the pooling and the Postal Service will review each request to pool
   and make a determination in writing.

   The Postal Service determines the number of excess gallons for the supplier’s pool and
   converts the excess gallons to an overage (overpayment) dollar amount.

   The Postal Service should initiate recovery (recoupment or payment) upon concluding
   the reconciliation process.




                                               28
Management of the Highway Contract Route                                                             NL-AR-11-003
 Voyager Card Program



                                     APPENDIX F: BEST PRACTICES

In the absence of a Postal Service documented policy or procedure, we applied general
best practices for internal controls.36 We did not list specific practices because of their
quantity. Instead, we list their general categories and applications to our work below.

                  Standard of Internal Control37                                           Sources38
Control Environment
 Recent GAO purchase card audit reports have identified the following six        Auditing and Investigating the
 elements as significantly affecting the control environment surrounding a       Internal Control of Government
 purchase card program: management’s philosophy (tone at the top),               Purchase Card Programs
 span of control, financial exposure, training, discipline, and purchasing and   Purchase Card Audit Guide
 reviewing authorities.                                                          (page 21) GAO-04-87G.
Risk Assessment
 Management has to formulate an approach for risk management and                 Internal Control Management
 decide upon the internal control activities required to mitigate those risks    and Evaluation Tool,
 and achieve the internal control objectives of efficient and effective          August 2001 (page 23) GAO-01-
 operations, reliable financial reporting, and compliance with laws and          1008G.
 regulations.
Control Activities
 Control activities are the policies, procedures, techniques, and                Internal Control Management
 mechanisms that enforce management’s directives and help ensure that            and Evaluation Tool,
 actions are taken to address risks. Control activities in a government          (August 2001 (pages 34-43)
 purchase card program should include a wide range of diverse activities,        GAO-01-1008G
 such as approvals, authorizations, verifications, reconciliations, reviews,     See also - Federal Information
 and creation and maintenance of related records that provide evidence of        System Controls Audit Manual
 execution of these activities.                                                  GAO-09-232G February 2, 2009.
Information and Communications
 Information should be recorded and communicated to government                   Internal Control Management
 purchase card program managers and others within the program that need          and Evaluation Tool,
 it in a form and within a time frame that enables them to carry out their       August 2001 (pages 51-56)
 internal control and other responsibilities.                                    GAO-01-1008G.
Monitoring
 Ongoing monitoring — regular management and supervisory activities,             Auditing and Investigating the
 comparisons, reconciliations, and other actions people take in performing       Internal Control of Government
 their duties — should be performed continually and be ingrained in the          Purchase Card Programs
 normal operations of a government purchase card program (e.g., review           Purchase Card Audit Guide
 and analysis of bank service provider reports, periodic reviews for             (page 20) GAO-04-87G.
 adherence to program policies and procedures, review and follow-up of
 audit findings).




36
   In short, internal control, which is synonymous with management control, helps government program managers
achieve desired results through effective stewardship of public resources.
37
   According to the GAO’s Standards for Internal Control in the Federal Government, there are five standards for
internal control.
38
   This list shows key sources, but we used several reports, guides, and regulations.


                                                            29
Management of the Highway Contract Route                  NL-AR-11-003
 Voyager Card Program


                      APPENDIX G: MANAGEMENT’S COMMENTS




                                           30
Management of the Highway Contract Route        NL-AR-11-003
 Voyager Card Program




                                           31
Management of the Highway Contract Route        NL-AR-11-003
 Voyager Card Program




                                           32
Management of the Highway Contract Route        NL-AR-11-003
 Voyager Card Program




                                           33
Management of the Highway Contract Route        NL-AR-11-003
 Voyager Card Program




                                           34
Management of the Highway Contract Route        NL-AR-11-003
 Voyager Card Program




                                           35
